                      SPECTO
                 IN            R
             F                     G
         O                             E
     E




                                       N
     C




                                           E
FI




                                           RA
OF




                                               L
                                                   OFFICE OF INSPECTOR GENERAL
                                                        EXPORT-IMPORT BANK
                                                         of the UNITED STATES




         Audit of Export-Import Bank’s
           Purchase Card Program



                                                              September 26, 2012
                                                                   OIG-AR-12-06
To:         Michael Cushing
            Senior Vice President, Resource Management

From:       Rebecca Sharek
            Assistant Inspector General for Audits

Subject:    Audit of Export-Import Bank’s Purchase Card Program

Date:       September 26, 2012


This memorandum transmits Audit Report OIG-AR-12-06, “Audit of Export-Import
Bank’s Purchase Card Program.” The audit was initiated to determine whether the
Export-Import Bank’s (1) purchase card policies and procedures comply with
federal regulations, and (2) controls are adequate to ensure compliance with those
policies and procedures.

The audit found that the Export-Import Bank's policies and procedures were
generally designed to detect and prevent unauthorized and potentially fraudulent
transactions; however, Bank personnel did not consistently follow the procedures.
We made six recommendations for corrective action. Management concurred with
the recommendations. We consider management’s proposed actions to be
responsive to our recommendations. The recommendations will be closed upon
completion and verification of the proposed actions.

We appreciate the courtesies and cooperation extended to us during the audit. If
you have questions, please contact me at (202) 565-3169 or
rebecca.sharek@exim.gov.

cc:     Fred Hochberg, Chairman and President
        Alice Albright, Executive Vice President and Chief Operating Officer
        Audit Committee
        David Sena, Senior Vice President and Chief Financial Officer
        Patricia Wolf, Supervisory Accountant
        William Boyd, Chief Acquisition Officer
        Thomas Campbell, Chief of Contracting Operations
        Kathleen Kern, Contracting Officer




                   811 Vermont Avenue, NW Washington, D.C. 20571
                     EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


           The Export-Import Bank of the United States (Ex-Im Bank)
           is the official export-credit agency of the United States. Ex-
           Im Bank is an independent, self-sustaining executive
           agency and a wholly-owned U.S. government corporation.
           The Bank’s mission is to support jobs in the United States
           by facilitating the export of U.S. goods and services. The
           Bank provides competitive export financing and ensures a
           level playing field for U.S. exports in the global
           marketplace.

           The Office of Inspector General, an independent office
           within Ex-Im Bank, was statutorily created in 2002 and
           organized in 2007. The mission of the Ex-Im Bank Office of
           Inspector General is to conduct and supervise audits,
           investigations, inspections, and evaluations related to
           agency programs and operations; provide leadership and
           coordination as well as recommend policies that will
           promote economy, efficiency, and effectiveness in such
           programs and operations; and prevent and detect fraud,
           waste, abuse, and mismanagement.




ACRONYMS
AO         Approving Official
APC        Agency Program Coordinator
CIO        Chief Information Officer
CAO        Chief Acquisition Officer
E&IT       Electronic and Information Technology
FAR        Federal Acquisition Regulation
FY         Fiscal Year
GSA        General Services Administration
OMB        Office of Management and Budget
TFM        Treasury Financial Manual


                                AUDIT REPORT OIG-AR-12-06
                             EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Executive Summary                              Audit of Export-Import Bank’s Purchase
                                               Card Program
                                               Audit Report OIG-AR-12-06
                                               September 26, 2012


Why We Did This Audit                    What We Found
Traditionally, purchase cards are at     For this audit, we examined 845 purchases, totaling $715,595, made by
high risk for misuse, fraud, waste,      13 of Ex-Im Bank’s 33 cardholders in fiscal years 2010 and 2011 and
                                         determined that the Bank lacks sufficient controls over its purchase card
and abuse. In fiscal years 2010 and      program. Although Ex-Im Bank's policies and procedures were generally
2011, the Export-Import Bank’s (Ex-      designed to detect and prevent unauthorized and potentially fraudulent
Im Bank) 33 cardholders spent a          transactions, and we found no evidence of fraudulent purchases, Bank
total of $2.1 million on purchase        personnel did not consistently follow the procedures. For example, of the
                                         845 purchases reviewed:
card transactions. If Ex-Im Bank has
not implemented sufficient internal              741 (or 88 percent) did not have documented prior approval as
                                                 required by Ex-Im Bank and Office of Management and Budget
controls over its purchase card
                                                 policy.
program, the Bank may not be able
to prevent or promptly detect                    117 (or 14 percent) were made using multiple transactions,
fraudulent purchases or other                    thereby circumventing single purchase limits.
improper use of the cards.                       6 (or 1 percent) involved questionable use of convenience checks,
                                                 which incurred unnecessary fees.
What We Recommended
                                         Additionally, purchase card program participants did not always maintain
To improve controls over its             receipts or review and reconcile records in a timely manner.
purchase card program, we
recommended that Ex-Im Bank              These conditions occurred due to a general lack of knowledge, effective
                                         training, and good recordkeeping. For example, prior to our audit, none of
ensure all program participants
                                         Ex-Im Bank’s cardholders had a current Delegation of Procurement
complete required training and           Authority that informed them of Ex-Im Bank policy and government-wide
obtain current delegation memos as       regulations, authorized them to use a purchase card within certain
soon as practicable, develop internal    boundaries, and documented their purchase limits. In addition, although
                                         30 of the Bank’s 33 cardholders completed the required General Services
training emphasizing controls over       Administration training, we could only verify that half of the Approving
the weaknesses we observed, revise       Officials had completed such training. Furthermore, Ex-Im Bank does not
its purchase card policy to clearly      offer required agency-specific training.
describe restrictions on the use of
                                         We also noted that Ex-Im Bank had not established clear procedures for
convenience checks, and perform a        ensuring electronic and information technology purchases are compliant
comprehensive annual review of the       with Section 508 of the Rehabilitation Act.
program. Management concurred
with our recommendations. We             Ex-Im Bank’s purchase card program coordinator has initiated efforts to
                                         improve controls over the program. However, additional improvements
consider management’s comments           and management attention are needed to further strengthen Ex-Im Bank’s
and proposed actions to be               purchase card program.
responsive to our recommendations.
The recommendations will be closed
upon completion and verification of      For additional information, contact the Office of the Inspector General at
the proposed actions.                    (202) 565-3908 or visit www.exim.gov/oig.


                                        AUDIT REPORT OIG-AR-12-06
                    EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




TABLE OF CONTENTS


INTRODUCTION
  Background __________________________________________________1
  Objectives ____________________________________________________4

RESULTS
  Finding: Controls over Ex-Im Bank’s Purchase Card Program Need
     Strengthening ______________________________________________5
     Recommendations, Management’s Response, and Evaluation of
     Management’s Response ____________________________________14
  Other Matters of Interest: Ex-Im Bank Needs Clear Procedures
     for Ensuring Section 508 Compliance ___________________________17

APPENDIX A
  Scope and Methodology ________________________________________19
  Review of Internal Controls _____________________________________20
  Federal Laws, Regulations, Policies, and Guidance ___________________20
  Prior Coverage _______________________________________________21

APPENDIX B
  Sample Ex-Im Bank Memo of Delegated Procurement Authority ________22

APPENDIX C
  Ex-Im Bank Section 508 Compliance Form _________________________23

APPENDIX D
  Management Comments _______________________________________24




                               AUDIT REPORT OIG-AR-12-06
                              EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                                   INTRODUCTION


Background
  A United States Government purchase card is an internationally accepted credit card issued
  to authorized personnel through the General Services Administration (GSA) SmartPay
  Program.1 The cards allow authorized personnel to purchase goods and services directly
  from vendors in support of agency needs, and have been designated by the Federal
                                                 Acquisition Regulation (FAR) as the
                                                 preferred method for purchases that do
                                                 not exceed $3,000 – commonly referred to
                                                 as micro-purchases.2 Like other federal
                                                 agencies, the Export-Import Bank of the
                                                 United States (Ex-Im Bank or the Bank)
                                                 uses purchase cards to streamline the
                                                 acquisition process and reduce the
                                                 administrative cost of processing such
                                                 small dollar purchases.

                                                     Since 1998, Ex-Im Bank has obtained
  Figure 1: GSA-issued purchase card; Source: GSA    purchase cards from Citibank through
                                                     GSA. The cards are issued to individual
  Ex-Im Bank employees; however, the associated accounts are billed to and paid directly by
  the Bank. In fiscal year (FY) 2010 and 2011, Ex-Im Bank’s cardholders spent a total of
  $2.1 million on purchase card transactions. Generally, cardholders purchased training,
  printing services, office supplies, cell phone and other information technology equipment
  and services, and goods and services for authorized Bank events and seminars.

  In addition to the GSA purchase card, select personnel in the Ex-Im Bank Office of
  Contracting Services are granted authority to write convenience checks from their
  purchase card accounts.3 Convenience checks are preprinted, pre-numbered, two-ply copy
  checks issued to designated users and intended only for use with merchants who do not
  accept purchase cards. The use of a convenience check incurs a "cash advance" fee of

  1The GSA SmartPay Program provides charge card products and services, including purchase cards, to over
  350 U.S. Government agencies and departments. The cards are provided through master contracts with three
  national banks: Citibank, JP Morgan Chase, and U.S. Bank.
  2FAR, Part 13: Simplified Acquisition Procedures, Subpart 13.2, “Actions At or Below the Micro-Purchase
  Threshold.”
  3Only GS-1102 series staff in Ex-Im Bank’s Office of Contracting Services have purchase card accounts with
  convenience checks.

                                          AUDIT REPORT OIG-AR-12-06
                                                       1
                             EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


approximately 2 to 3 percent of each transaction amount. In addition, the Department of
the Treasury has ruled that checks are not electronic funds transfer compliant as required
by Public Law 104-134, the Debt Collection Improvement Act of 1996.4 As such, the Office
of Management and Budget (OMB) has stated that convenience checks should be used as a
payment method of last resort and only when no reasonable alternative merchant is
available who meets agency needs and accepts purchase cards.5

Relevant Regulations, Policies, and Procedures. Ex-Im Bank’s purchase card program is
subject to guidance from GSA and policies, procedures, and instructions set forth in the FAR
and by the Department of the Treasury’s Treasury Financial Manual (TFM).6 In addition,
OMB Circular A-123, Appendix B establishes minimum requirements and suggested best
practices federal agencies should use to reduce the risk of fraud, waste, and error in U.S.
Government charge card programs. To supplement government-wide regulations and
guidance, Ex-Im Bank created an internal policy – RM-2010-01, “Assignment and Use of
Government Purchase Cards,” April 15, 2011 (Ex-Im Bank’s Purchase Card Policy).
Generally, the policy:

          states that purchase cards may only be used to pay for authorized goods and
          services in support of the Bank’s mission and operations;

          establishes the roles, responsibilities, and procedures for each type of purchase
          program participant: cardholders, Approving Officials (AOs), and the Agency
          Program Coordinator (APC);

          requires cardholders and AOs to complete initial and, every 3 years, refresher
          purchase card training; and

          specifies prohibited items and items requiring special approval before purchase.

Purchase Card Program Roles and Responsibilities. Ex-Im Bank’s Chief Acquisition
Officer (CAO) is responsible for ensuring that Ex-Im Bank’s Purchase Card Policy complies
with all applicable GSA, FAR, Treasury, and OMB requirements and for initiating
disciplinary actions for the improper, fraudulent, or abusive use of purchase cards. The
CAO issues to each cardholder a Delegation of Procurement Authority which confers the
authority to use a purchase card; establishes purchase limits and expiration date of the
authority; and communicates to cardholders the specific controls, prohibitions, and
requirements that help deter purchase card abuse and misuse. A sample Ex-Im Bank
Delegation of Procurement Authority is shown in Appendix B.



4The Debt Collection Improvement Act of 1996 requires that, with limited exceptions, Federal payments be
made through electronic means.
5OMB Circular A-123, Appendix B, “Improving the Management of Government Charge Card Programs,”
revised January 15, 2009.
6   TFM, Volume 1, Part 4, Chapter 4500, “Government Purchase Cards.”

                                         AUDIT REPORT OIG-AR-12-06
                                                      2
                                 EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Ex-Im Bank’s CAO also appoints an APC to manage the purchase card program. The APC is
responsible for day-to-day operations of the program, including ensuring implementation
of internal controls, supporting AOs in their monitoring of cardholders, and auditing
cardholders’ and AOs’ files. The APC also serves as a liaison between Ex-Im Bank, Citibank,
and appropriate federal agencies (including GSA) and prepares Ex-Im Bank-specific
training materials for cardholders and AOs.

AOs are Ex-Im Bank supervisory staff given authority and appropriate training to review
and approve cardholders' monthly purchases and credit card statements. AOs are
responsible for ensuring that all assigned cardholders comply with the limits of their
Delegation of Procurement Authority, purchases are appropriate, charges are reasonable
and funding is available under organizational budgets, and items purchased were properly
received and inventoried.

Cardholders are responsible for obtaining AO approval of all items before making
purchases, ensuring purchases comply with Ex-Im Bank’s Purchase Card Policy and
government-wide regulations, and maintaining current and historical purchase records,
including receipts, evidence of AO approval, and a monthly Purchase Card Activity Log. As
shown in Figure 2, cardholders receive monthly statements from Citibank. Each month,
cardholders must verify all charges on the statement and provide their AO with a copy of
the statement and supporting documents corroborating each charge. The AOs must review
and approve monthly statements of their subordinate cardholders and provide the
statements and supporting documents to the APC for review. The APC then reviews,
approves, and submits all statements to the Ex-Im Bank Office of Administration and
Security, which forwards the information to the Office of the Chief Financial Officer for
payment.




                          Cardholders                                                       Office of
                       receive monthly                                                  Administration
                                              AOs review,             APC review,
                       statements from                                                   and Security
    Cardholders use                          approve, and            approve, and
                        Citibank, verify                                                   codes the
   purchase cards to                       provide monthly         provide monthly                          Office of the Chief
                          charges, and                                                 transactions for
    buy authorized                          statements and        statements to the                          Financial Officer
                             provide                                                     payment and
      goods and                                supporting              Office of                               pays Citibank
                        statements and                                                     forwards
        services                           documents to the         Administartion
                           supporting                                                 statements to the
                                                  APC                and Security
                         documents to                                                 Office of the Chief
                               AOs                                                     Financial Officer




Figure 2. Purchase card process, including monthly review and reconciliation activities.
                                             AUDIT REPORT OIG-AR-12-06
                                                              3
                          EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


  Per Ex-Im Bank’s Purchase Card Policy, all monthly review and reconciliation activities
  must occur within 10 days after the end of the billing cycle to ensure that payments to
  Citibank are made according to the Prompt Payment Rule, 5 CFR 1315.

Objectives
  Our objectives were to determine whether Ex-Im Bank’s (1) purchase card policies and
  procedures comply with federal regulations, and (2) controls are adequate to ensure
  compliance with those policies and procedures. See Appendix A for details of the audit’s
  scope and methodology; our review of internal controls, federal laws, regulations, policies,
  and guidance; and a list of prior audit coverage.




                                     AUDIT REPORT OIG-AR-12-06
                                                 4
                         EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL



                                                                               RESULTS


Finding: Controls over Ex-Im Bank’s Purchase Card Program Need
Strengthening
  Ex-Im Bank lacks sufficient controls over its purchase card program. Although the Bank's
  policies and procedures generally complied with federal regulations and were designed to
  detect and prevent unauthorized and potentially fraudulent purchase card transactions, we
  determined that Ex-Im Bank employees did not consistently follow the procedures. For
  example, of the 845 purchases we reviewed:

         741 (or 88 percent) did not have the documented prior approval of the designated
         AO or supervisor, as required by Bank policy and OMB Circular A-123, Appendix B.

         117 (or 14 percent) were made using multiple transactions, thereby circumventing
         the cardholder’s single purchase limit and avoiding requirements for competition
         that apply to purchases in excess of the micro-purchase threshold.

         6 (or 1 percent) involved questionable use of convenience checks, which incurred
         unnecessary fees.

  Additionally, cardholders, AOs, and the APC did not always fulfill their obligations for
  maintaining receipts or reviewing and reconciling statements and other purchase card
  records in a timely manner. These conditions occurred due to a general lack of knowledge,
  effective training, and good recordkeeping. For example, prior to our audit, none of Ex-Im
  Bank’s cardholders had a current Delegation of Procurement Authority that informed them
  of Ex-Im Bank policy and government-wide regulations, authorized them to use a purchase
  card within certain boundaries, and documented their single and monthly purchase limits.
  In addition, although 30 of the Bank’s 33 cardholders completed the required GSA training,
  we could only verify that half of the AOs had completed such training. Furthermore, none
  of the cardholders or AOs had completed Ex-Im Bank-specific training, as required by Bank
  policy and the TFM, since Ex-Im Bank does not offer such training. Collectively, these
  weaknesses place Ex-Im Bank purchase cards at an increased risk for misuse, fraud, waste,
  and abuse. The APC has initiated efforts to improve controls over the program; however,
  additional improvements and management attention are needed to strengthen Ex-Im
  Bank’s purchase card program.


  Majority of Purchases Reviewed Did Not Have Documented Prior Approval
  According to Ex-Im Bank’s Purchase Card Policy, AOs play “the most important role in
  preventing fraud and abuse of purchase cards” since they are accountable for verifying that
  cards are used appropriately, reporting suspected fraud, and monitoring for the
  reasonableness of purchases. To facilitate the AO’s role, Ex-Im Bank’s policy requires

                                    AUDIT REPORT OIG-AR-12-06
                                                5
                        EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


cardholders to obtain approval from their AO or immediate supervisor before making a
purchase. Specifically, the cardholder is required to send their AO or supervisor an e-mail
requesting permission to purchase an item and attach an item description and/or picture,
estimated cost, expected delivery date, and justification for the purchased item. The reply
email approving the purchase is then attached to the cardholder’s Purchase Card Activity
Log, where all purchases for the month are recorded. In addition to Ex-Im Bank’s
requirements, OMB Circular A-123, Appendix B states that all Government purchase
cardholders should “document availability of funds at the time of each purchase and obtain
prior approval (emphasis added) before making self-generated purchases.”

When questioned, most Ex-Im Bank cardholders stated that they were aware of the pre-
approval requirement. However, all 13 cardholders included in our review made
purchases without obtaining or documenting the required prior approval. Specifically, we
reviewed the Purchase Card Activity Logs and attached supporting documentation for all
13 cardholders and found no evidence to support that 741 (or 88 percent) of the
845 transactions we reviewed received prior approval from a supervisor or AO. These
purchases totaled about $630,000.

Some cardholders told us that their AO only requires them to seek prior approval for non-
routine or large purchases. Others stated that they do seek and obtain approval; however,
AO approval may not always be documented. Ex-Im Bank’s requirements for prior AO or
supervisory approval could be met with a simple exchange of emails and should occur to
maintain proper controls. Without obtaining supervisory or AO approval before making a
purchase, cardholders could exceed the scope of their authority, purchase improper items
or items that are not needed, or commit funds that are unavailable. Further, the lack of
documented AO approval reduces the APC’s ability to fulfill her responsibilities for
providing adequate management oversight of the approval process as there is no audit
trail, which increases the risk that fraudulent, improper, and other abusive activity will
occur without detection.


Cardholders Split Purchases, Circumventing Controls over Single Purchase
Limits
With the exception of certain contracting officials, Ex-Im Bank purchase cardholders are
subject to single purchase limits that correspond to the micro-purchase thresholds
established by FAR Part 2.101. These thresholds are: $3,000 for goods, $2,500 for services
subject to the Service Contract Act (professional services), and $2,000 for services subject
to the Davis-Bacon Act (construction and other non-professional services). We analyzed all
845 transactions included in our review to determine whether cardholders circumvented
these single purchase limits.

According to Ex-Im Bank’s Purchase Card Policy, “Purchases from the same vendor or for
the same item within one billing cycle are considered one purchase and are subject to the
micro-purchase threshold and [cardholder] per purchase limit[s].” The policy specifically
instructs cardholders: “Do not split an order to stay below the assigned per purchase limit.”
Further, FAR Part 13 prohibits splitting transactions to avoid requirements that apply to
                                   AUDIT REPORT OIG-AR-12-06
                                               6
                           EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


purchases exceeding the micro-purchase thresholds, including requirements for
competition. If a cardholder has a legitimate need to exceed an individual per purchase
limit, Ex-Im Bank’s Purchase Card Policy requires the cardholder to submit a Requisition
for Supplies/Services to the Office of Contracting Services for approval. However, we found
that 117 (or 14 percent) of the 845 transactions we reviewed were part of a split
transaction as defined by Ex-Im Bank, and there was no documented approval of these split
purchases. The purchases included:

        $10,839 for office paper from one vendor split into six transactions in one day;

        $9,500 for membership fees, which were included on one invoice but split into four
        transactions on four different days; and

        $5,360 for general building maintenance services from one vendor split into three
        transactions over a four day period.

A single cardholder made the majority of the split transactions and, when questioned, the
cardholder stated that he was unaware that purchases from the same vendor within one
billing cycle in excess of the micro-purchase threshold constituted a split purchase. Other
cardholders and AOs stated that they were aware of the prohibitions against splitting
transactions and procedures for obtaining approval to exceed their purchase limits.
However, we found no signed Requisition for Supplies/Services on file for the split
purchases they made.

Using multiple transactions to circumvent controls over single purchase limits increases
the potential risk of improper purchases and abuse of Ex-Im Bank purchase cards.
Additionally, doing so to avoid requirements for competition that apply to purchases in
excess of the micro-purchase threshold is an inappropriate contract action that potentially
deprives the government of the benefits of competition, avoids other federal procurement
policies, and could violate the Competition in Contracting Act of 1984 (41 U.S.C. 253).
Exceeding prescribed purchase limits should not be routine and, when it is necessary in
order to fulfill the intention of the FAR’s simplified acquisition principles, cardholders and
AOs should obtain and document the prior approval of the Office of Contracting Services.


Use of Convenience Checks Was Questionable
The use of a convenience check incurs a "cash advance" fee of approximately 2 to 3 percent
of each transaction amount. In addition, the Department of the Treasury has ruled that
checks are not electronic funds transfer compliant, as required by Public Law 104-134, the
Debt Collection Improvement Act.7 As such, OMB has stated that:

                Convenience checks are a payment and/or procurement tool
                intended only for use with merchants that do not accept

7The Debt Collection Improvement Act of 1996 requires that, with limited exceptions, Federal payments be
made through electronic means.

                                       AUDIT REPORT OIG-AR-12-06
                                                    7
                              EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


                  purchase cards and for other authorized purposes where
                  charge cards are not accepted. Convenience checks should be
                  used as a payment method of last resort only when no
                  reasonable alternative merchant is available who accepts the
                  charge card.8

We examined the 845 transactions included in our sample for reasonableness and
appropriateness in accordance with FAR, OMB, and Ex-Im Bank policy and found 6 (or
1 percent) involved questionable use of convenience checks. In these instances, an Ex-Im
Bank cardholder used convenience checks to purchase goods and services that may have
been available through vendors who accept purchase cards. Further, we found no evidence
that the cardholder made a reasonable effort to locate vendors who accept purchase cards
and could provide equivalent goods and services. By using convenience checks instead of
seeking out vendors who accept purchase cards, Ex-Im Bank incurred unnecessary fees,
which averaged 2 to 3 percent of the following transactions:

      1. $5,000 for speechwriting services for Ex-Im Bank’s Chairman;

      2. $3,800 to print awards for Ex-Im Bank’s annual conference;

      3. $3,000 to print pocket folders;

      4. $750 for a newspaper advertisement;

      5. $510 for food and beverages provided at an official Ex-Im Bank event; and

      6. $450 for legal services, which, in addition to representing questionable use of a
         convenience check, potentially duplicated services readily available through Ex-Im
         Bank’s Office of the General Counsel. The check in question was written to a retiree
         in Florida to review appropriations legislation impacting the Bank.9

While not significant to the overall purchase card program, these convenience checks and
associated fees are contrary to federal procurement policy. Generally, such policy
emphasizes the need for agencies to prudently spend taxpayer resources in a manner that
ensures the best interest of the Government, demonstrates fiscal responsibility, and
maintains the public’s trust.

Although Attachment B-3, “Special Procurement Authority for GS 1102 Staff,” of Ex-Im
Bank’s Purchase Card Policy provides some guidance on the use of convenience checks, the
policy does not sufficiently address OMB Circular A-123, Appendix B requirements.
Specifically, the policy does not (1) inform employees of their responsibility to make a
reasonable effort to find vendors who provide equivalent products and accept purchase
cards; (2) state that checks are the payment method of last resort; or (3) address

8   OMB Circular A-123, Appendix B, Chapter 12, “Convenience Checks.”
9According to cardholder records, the individual was recommended by Congressional staff as an “expert” in
appropriations law.
                                         AUDIT REPORT OIG-AR-12-06
                                                      8
                        EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


associated fees, training requirements, stop payment procedures, independent reviews,
record retention requirements, or many of the other matters required by OMB. As a result,
we believe Ex-Im Bank could improve its purchase card program by clearly describing the
limitations that apply to convenience checks and implementing procedures for ensuring
convenience checks are used properly and only when necessary.


Cardholders, AOs, and the APC Did Not Consistently Follow Post-Purchase
Procedures
Ex-Im Bank’s Purchase Card Policy requires certain post-purchase procedures intended to
ensure that purchase card transactions are in the best interest of the Government, are
adequately supported, and are properly authorized. These controls include maintaining
invoices and receipts and conducting routine reconciliations and audits to identify
improper or unauthorized transactions and practices. However, we found that
cardholders, AOs, and, where applicable, the APC did not consistently fulfill their
responsibilities or follow the Bank’s procedures related to these controls.

Maintenance of Invoices and Receipts. Ex-Im Bank’s Purchase Card Policy requires
cardholders to submit a receipt for all purchases. The receipt should describe what was
purchased and should correlate to an entry in the cardholder’s monthly Purchase Card
Activity Log. Further, all receipts must be attached to each month’s Log and submitted to
the AO along with the cardholder’s monthly credit card statement from Citibank. Following
approval by the AO, the cardholder is responsible for the original receipts, which must be
maintained in an organized file that is easily accessed if requested by an auditor for one full
year after the end of the FY in which the purchase was made. In cases of disputed
transactions, Ex-Im Bank requires cardholders to keep receipts for one full year after the
end of the FY in which the dispute was resolved.

Although all cardholders stated that they were aware of the requirements for maintenance
and submission of invoices and receipts, we found that 6 of the 13 cardholders included in
our review did not maintain proper documentation. Additionally, 25 of the
845 transactions we reviewed were not supported with invoices or receipts, including
purchases of a handheld video camera and office supplies.

At the end of each billing cycle, cardholders must reconcile the transactions appearing on
their monthly statement by verifying their accuracy against receipts and invoices. In
addition, AOs are responsible for ensuring that all purchases made by the cardholder were
appropriate and the charges accurate. If cardholders do not maintain complete purchase
card records, including invoices and receipts, they cannot verify charges, credits,
outstanding disputes, and refunds on their monthly statements. Furthermore, without
cardholder invoices and receipts, AOs cannot easily determine the appropriateness and
accuracy of charges reported on cardholders’ Purchase Card Activity Logs, or verifies what
was purchased and whether it was for government use before authorizing payment. In
sum, a lack of complete cardholder records, including maintenance of invoices and receipts,
increases the risk that fraudulent, improper, and other abusive activity will occur without
detection.
                                   AUDIT REPORT OIG-AR-12-06
                                               9
                        EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Performance of Routine Reconciliations and Audits. According to OMB Circular A-123,
Appendix B, “agencies must periodically evaluate the effectiveness of the controls put in
place to mitigate the risks of payment delinquencies and charge card misuse.” Further, the
Circular states that charge card managers must (1) review charge card statements and
account activity reports to identify questionable or suspicious transactions and (2) require
charge card statement reconciliation or transaction reconciliation in a timely manner.

Ex-Im Bank’s Purchase Card Policy requires cardholders to review their purchase card
transactions and submit all supporting documentation to their AO within 5 business days
after the end of the billing cycle. Additionally, AOs must verify that all cardholder
transactions represent legitimate government requirements; verify that funds are
appropriately allocated; and ensure that cardholders reconcile all transactions and
maintain appropriate records. Each AO must review and approve Citibank statements from
their subordinate cardholders on a monthly basis and submit the reconciliations to the APC
within 8 business days after the end of the billing cycle. The APC then reviews, approves,
and submits all statements to the Ex-Im Bank Office of Administration and Security, which
forwards the information to the Office of the Chief Financial Officer for payment. Per Ex-Im
Bank’s Purchase Card Policy, all monthly review and reconciliation activities must occur
within 10 days after the end of the billing cycle to ensure that payments to Citibank are
made according to the Prompt Payment Rule, 5 CFR 1315.

In addition to monthly reviews, the policy requires the APC to randomly audit cardholder
accounts to ensure that cardholders use their cards only for purchases related to official
duties, items purchased were received and inventoried properly, and all purchases comply
with the FAR. The APC is also required to review annual and monthly summary reports to
identify accounts that may not be needed in the next FY, require a higher or lower per
purchase and/or monthly limit, and have a history of declined purchases, returns, or other
indicators of possible misuse.

To determine whether cardholders and AOs performed the required monthly reviews in a
timely manner, we reviewed a sample of 76 monthly reconciliations and determined that:

       56 reconciliations (or 74 percent) were either reviewed by the cardholder after the
       fifth business day or were not dated by the cardholder; and

       53 reconciliations (or 70 percent) were either reviewed by the AO after the third
       business day or were not signed by the AO and/or cardholder.

To determine if the APC completed the required monthly and annual reviews, we examined
records from FYs 2010 and 2011. We found no evidence to support that the APC had
completed any monthly reviews between October 2009 and July 2011, or annual reviews
or random audits during either FY 2010 or 2011.

The current APC assumed responsibility for Ex-Im Bank’s purchase program in August
2011 and told us she received no documentation of audits or reviews completed by her
predecessor. In August and September 2011, the APC performed a full review of the

                                   AUDIT REPORT OIG-AR-12-06
                                               10
                        EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


monthly transactions for all cardholders but did not complete an annual review or any
other type of audit.

Reviewing the monthly reconciliation of purchase card transactions is a multi-step process,
culminating in payment to Citibank. If responsible parties participating in Ex-Im Bank’s
purchase card program do not complete the required monthly reconciliations in a timely
manner, there is an increased risk that payments to Citibank will violate the Prompt
Payment Rule, 5 CFR 1315. Moreover, if the APC does not maintain adequate oversight of
the purchase card program by completing the required routine and random reviews and
audits, there is an increased risk that questionable or suspicious transactions or other
control weaknesses in the purchase card program will go undetected.


Internal Control Weaknesses Occurred Due to a Lack of Knowledge, Effective
Training, and Recordkeeping
The weaknesses we observed in Ex-Im Bank’s purchase card program occurred due to a
general lack of knowledge, training, and recordkeeping. For example, prior to our audit,
none of Ex-Im Bank’s cardholders had a current Delegation of Procurement Authority that
informed them of Ex-Im Bank policy and government-wide regulations, authorized them to
use a purchase card within certain boundaries, and documented their single and monthly
purchase limits. In addition, we had difficulty verifying that cardholders and AOs had
completed purchase card training, including (1) GSA’s initial training and refresher training
every 3 years, and (2) Ex-Im Bank-specific training as required by Ex-Im Bank policy and
the TFM. Finally, although purchase card program participants told us that they were
aware of and complied with applicable requirements, policies, and procedures, we could
not verify these statements without supporting documentation.

Lack of Delegations of Procurement Authority. To confer the authority to use a
purchase card and inform cardholders of their responsibilities and limitations, the CAO
issues each cardholder a Delegation of Procurement Authority. The delegation memo
(1) names the cardholder’s AO, (2) establishes the cardholder’s single and monthly
purchase limits, (3) explains the cardholder’s responsibility for complying with Ex-Im Bank
and government-wide requirements and regulations, (4) describes the prohibitions against
and possible disciplinary consequences of purchase card abuse and misuse, and
(5) includes the date the authority expires. According to Ex-Im Bank’s Purchase Card
Policy, purchase cardholder authority is valid for up to 1 year and expires at the end of the
applicable FY. Appendix B contains a sample Ex-Im Bank Delegation of Procurement
Authority.

Notwithstanding Ex-Im Bank’s Purchase Card Policy, we found that, prior to our audit, none
of the Bank’s purchase cardholders had a current Delegation of Procurement Authority.
When we requested the documents, cardholders were unable to provide them. Moreover,
Ex-Im Bank’s APC stated that when she assumed responsibility for the purchase card
program in August 2011, she was unable to find any signed delegation memos on file.



                                   AUDIT REPORT OIG-AR-12-06
                                               11
                              EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Prior to and during our audit, the APC initiated efforts to ensure that all Ex-Im Bank
purchase cardholders have current delegation memos. This action should help improve Ex-
Im Bank’s purchase card program since the Delegation of Procurement Authority includes
necessary guidance that communicates to cardholders the specific controls, prohibitions,
and requirements, including requirements for good recordkeeping, that help deter
purchase card abuse and misuse. Additionally, ensuring that all cardholders have current
and up-to-date delegation memos should help educate cardholders on the regulations that
pertain to their individual purchase limits and the consequences of circumventing those
limits.

Lack of Effective Cardholder and AO Training. OMB Circular A-123, Appendix B
requires all purchase card program participants to be trained in charge card management.
According to OMB, program participants must:

           be trained prior to appointment;

           take refresher training, at a minimum, every 3 years; and

           certify that they have received the training, understand the regulations and
           procedures, and know the consequences of inappropriate actions.

OMB further requires that cardholder training (1) provide general information on card use;
(2) familiarize cardholders with federal procurement and property laws and regulations
(including agency procurement, property, and other card-related policies and usage
guidelines); and (3) be consistent with the cardholder’s level of responsibility or spending
authority. For AOs, training in federal acquisition, applicable financial policies and
regulations, and AO responsibilities is required prior to becoming an AO. OMB also
requires that AOs receive the same training as cardholders.

In addition, the TFM requires each agency participating in the government-wide purchase
card program to establish a training program on card procedures and small purchasing
regulations. The TFM further requires that, “Cardholders, approving officials, and other
employees, such as those in the designating billing office, who are involved in the program;
must attend agency training.”10

To fulfill purchase card training requirements, Ex-Im Bank’s Purchase Card Policy requires
that individuals nominated as cardholders must complete GSA’s online Purchase Card
Training before obtaining a purchase card, receive routine ethics briefings on the
“Standards of Ethical Conduct for Employees of the Executive Branch,” and attend Ex-Im
Bank-specific training sessions given by the APC. AOs must obtain the same training as
cardholders and review the Citibank booklet, “Purchase Card Management.” Cardholders
and AOs must also participate in refresher training provided by the APC at least every
3 years.



10
     TFM, Volume 1, Part 4, Chapter 4500, “Government Purchase Cards.”

                                         AUDIT REPORT OIG-AR-12-06
                                                      12
                        EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


To determine whether Ex-Im Bank purchase card program participants received the
required training, we requested supporting documentation for all 33 cardholders and
20 AOs. Copies of all training certificates must be maintained pursuant to U.S. National
Archives and Records Administration requirements, General Records Schedule 1, Item 29.
Although 30 of the Bank’s 33 cardholders completed the required GSA training, we could
only verify that half of the AOs had completed such training. Furthermore, none of the
cardholders or AOs had completed Ex-Im Bank-specific training, as required by Bank policy
and the TFM, since Ex-Im Bank does not offer such training.

Training is a crucial part of the Government purchase card program. According to OMB,
“Training is important because it is vital that charge card managers and cardholders
understand their roles and responsibilities in order for charge card programs to be
effectively implemented. Further, training should ensure charge card holders are informed
of any changes or updates to the charge card program.” Government purchase cards are
easily abused and the likelihood for abuse is even greater when program participants are
not properly trained. We believe that many of the weaknesses we observed in Ex-Im
Bank’s purchase card program were caused by a general lack of knowledge and effective
training, particularly regarding the need for maintaining proper records and documenting
Ex-Im Bank purchase card processes. Furthermore, we believe the APC should develop an
appropriate recordkeeping system for maintaining purchase card training records since
the Office of Contracting Services had significant difficulty locating these records during
our audit.


Conclusion
Because they allow the same individual to order, pay for, and receive goods and services,
purchase cards are innately at high risk for misuse, fraud, waste, and abuse. Collectively,
the weaknesses we observed in the Ex-Im Bank’s purchase card program place the Bank’s
cards at even greater risk. We found no evidence of fraudulent purchases and Ex-Im Bank’s
APC has initiated efforts to improve controls over the program. For example, the APC
began issuing current delegation memos, informing cardholders of the responsibilities and
restrictions related to their purchase card use. Additionally, she established deadlines for
all cardholders and AOs to complete the required purchase card training. However, the
noncompliance issues we found occurred because the control environment allowed Ex-Im
Bank personnel to ignore applicable regulations and established internal control policies
and procedures without consequences. Therefore, additional improvements and
management attention are needed to further strengthen Ex-Im Bank’s purchase card
program




                                   AUDIT REPORT OIG-AR-12-06
                                               13
                       EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Recommendations, Management’s Response, and Evaluation of
Management’s Response

To improve controls over Ex-Im Bank’s purchase card program, we recommend that:

   1. The APC verify that all Ex-Im Bank purchase card program participants complete
      required purchase card training and obtain up-to-date training certifications as soon
      as practicable.

         Management’s Response. Concur. The Senior Vice President for Resource
         Management stated that the APC has prepared an inventory of training renewal
         dates for all program participants. Reminders of renewal dates will be provided a
         month in advance and two weeks in advance to all participants as their renewal
         dates approach. Those individuals who do not have a current training certificate
         on file will be informed that their participation in the purchase card program will
         be terminated if they do not obtain refresher training and provide a copy of the
         certificate in a timely manner.

         Evaluation of Management’s Response. Management’s proposed actions are
         responsive; therefore, the recommendation is resolved and will be closed upon
         completion and verification of the proposed actions.

   2. The APC establish a process and recordkeeping system for tracking and verifying
      program participants’ completion of required training in the future, including a
      process for supervisory notification in the event that program participants fail to
      meet future training requirements.

         Management’s Response. Concur. The Senior Vice President for Resource
         Management stated that all known copies of training certificates for active
         cardholders and Approving Officials have been filed electronically on a share
         drive. The APC will also back up this information on a monthly basis elsewhere to
         ensure the information is retained and available. As stated above, the APC has
         prepared an inventory list of training renewal dates for all program participants.
         Reminders of renewal dates will be provided a month in advance and two weeks
         in advance to all participants as their renewal dates approach. Those individuals
         who do not have a current training certificate on file will be informed that their
         participation in the purchase card program will be terminated if they do not
         obtain refresher training and provide a copy of the certificate in a timely manner.

         Evaluation of Management’s Response. Management’s proposed actions are
         responsive; therefore, the recommendation is resolved and will be closed upon
         completion and verification of the proposed actions.




                                  AUDIT REPORT OIG-AR-12-06
                                              14
                    EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


3. The CAO provide a current Delegation of Procurement Authority to all Ex-Im Bank
   purchase cardholders once the APC has verified that cardholders have met all
   immediate training requirements.

      Management’s Response. Concur. The Senior Vice President for Resource
      Management stated that a current Delegation of Procurement Authority has been
      issued to all cardholders and Approving Officials, including those individuals
      without a current record of training. Ex-Im Bank believes it highly improbable
      that anyone would have been issued a purchase card or designated as an
      Approving Official without the required training at the time it was originally
      required. In those cases where a current training certificate is lacking, the
      delegation memos note the lack of current training documentation and reiterate
      the need to obtain refresher training by the identified renewal date.

      Evaluation of Management’s Response. Management’s proposed actions, when
      combined with actions proposed in response to Recommendation 2, meet the
      intent of the recommendation; therefore, the recommendation is resolved and
      will be closed upon completion and verification of the proposed actions.
      However, in those cases where a current training certificate is lacking, we
      reiterate our belief that cardholders should complete all required training,
      including refresher training, as soon as possible and certificates should be
      retained as evidence.

4. The CAO develop Ex-Im Bank-specific purchase card training to supplement
   refresher training offered by GSA, as required by Ex-Im Bank’s Purchase Card Policy
   and the TFM. The training should emphasize: (a) Ex-Im Bank’s purchase card
   approval processes and requirements; (b) prohibitions against splitting
   transactions; (c) restrictions on the use of convenience checks; (d) requirements for
   and benefits of maintaining thorough and complete purchase card records; and (e)
   requirements for monthly reconciliations of purchase card records and regular
   audits and reviews of purchase card activities.

      Management’s Response. Concur. The Senior Vice President for Resource
      Management stated that Ex-Im Bank will develop supplemental purchase card
      training for cardholders and Approving Officials. Ex-Im Bank will provide a draft
      of the proposed training to the OIG within the next 60 days and consider any
      changes the OIG may recommend.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive; therefore, the recommendation is resolved and will be closed upon
      completion and verification of the proposed actions.

5. The CAO revise Ex-Im Bank’s Purchase Card Policy to more clearly describe
   restrictions on the use of convenience checks, including procedures to ensure they
   are used properly and only when necessary, as described in OMB Circular A-123,
   Appendix B.

                               AUDIT REPORT OIG-AR-12-06
                                           15
                    EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


      Management’s Response. Concur. The Senior Vice President for Resource
      Management stated that Ex-Im Bank’s Purchase Card Policy will be revised to
      provide additional information on the proper circumstances and use of
      convenience checks. Ex-Im Bank will provide proposed information to the OIG
      within the next 60 days and consider any changes the OIG may recommend.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive; therefore, the recommendation is resolved and will be closed upon
      completion and verification of the proposed actions.

6. The APC perform a comprehensive annual review of Ex-Im Bank’s purchase card
   program as soon as practicable and institute a schedule and processes for recurring
   future reviews in order to identify and implement any future corrective actions that
   may be warranted.

      Management’s Response. Concur. The Senior Vice President for Resource
      Management stated that the APC will conduct random audits of one to three
      cardholders per quarter and a comprehensive review of Ex-Im Bank’s purchase
      card program on an annual basis beginning each October, starting this year. The
      APC will utilize reports from Citibank to identify accounts that may no longer be
      needed, require a higher or lower per purchase and/or monthly limit, have a
      history of declined purchases, returns, or other suspicious transactions; apparent
      split purchasing; and spend data per user office. On a quarterly basis, these
      reports will be provided to Approving Officials to bring to their attention any
      problematic activity.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive; therefore, the recommendation is resolved and will be closed upon
      completion and verification of the proposed actions.




                               AUDIT REPORT OIG-AR-12-06
                                           16
                               EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Other Matters of Interest: Ex-Im Bank Needs Clear Procedures for
Ensuring Section 508 Compliance
  Section 508 of the Rehabilitation Act requires that when federal agencies develop, procure,
  maintain, or use electronic and information technology (E&IT) items, they must ensure that
  federal employees and members of the public with disabilities have access to and use of
  information and data that is comparable to the access to and use of information and data by
  other federal employees or individuals.11,12 According to OMB Circular A-123, Appendix B,
  as of April 1, 2005, all purchases of E&IT made with Government purchase cards are
  subject to Section 508 of the Rehabilitation Act, unless an exception applies.

  During the audit, we found that 11 of Ex-Im Bank’s 14 E&IT items bought with purchase
  cards and included in our review – including various operating system software, voice mail
  hard drives, smart card readers, and a handheld video camera – were not documented as
  Section 508 compliant or as exceptions to the Act. Additionally, through discussions with
  purchase cardholders and officials from Ex-Im Bank’s Contracting Services Office and Office
  of the Chief Information Officer (CIO), we found a general lack of understanding and
  agreement regarding the Section 508 requirements that apply to E&IT purchases.

  Ex-Im Bank’s Purchase Card Policy requires cardholders to complete a Section 508
  Compliance Form (shown in Appendix C) and submit it for review and approval by the CIO
  before completing E&IT purchases. However, the CIO told us that the form is only required
  when purchasing E&IT items for employees with known disabilities. Additionally, Ex-Im
  Bank’s policy does not provide adequate guidance to identify Section 508 E&IT purchases,
  including a definition of E&IT items. Nor does the policy refer employees to government-
  wide resources such as GSA’s Office of Information Technology Accessibility and Workforce
  website, www.section508.gov, or GSA’s Buy Accessible Wizard at www.buyaccessible.gov.13
  These on-line resources provide free guidance, information, and training to help agencies
  improve compliance with the law and build an accessible infrastructure, which creates an
  environment for hiring persons with disabilities.

  Because compliance with Section 508 of the Rehabilitation Act was outside the scope of our
  audit, we are not making any formal recommendations relating to this issue. However, we

  11Section 508 of the Rehabilitation Act (29 U.S.C. 794d), as amended by the Workforce Investment Act of
  1998 (P.L. 105-220), August 7, 1998.
  12 The term “information technology,” with respect to an executive agency means any equipment or
  interconnected system or subsystem of equipment, that is used by the agency or its contractors in the
  automatic acquisition, storage, manipulation, management, movement, control, display, switching,
  interchange, transmission, or reception of data or information. This includes computers, ancillary equipment,
  software, firmware and similar procedures, services, and related resources. E&IT has the same meaning as
  “information technology” but also includes any equipment or interconnected system or subsystem of
  equipment that is used in the creation, conversion, or duplication of data or information. This includes but is
  not limited to telecommunications products, web sites, multimedia, computer hardware and software, and
  office equipment such as copiers and fax machines.
  13Although the Ex-Im Bank’s Section 508 Compliance Form references www.section508.gov, relevant
  information is not provided in the body of Ex-Im Bank’s Purchase Card Policy.

                                           AUDIT REPORT OIG-AR-12-06
                                                        17
                       EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


believe that Ex-Im Bank’s CAO and CIO should clarify relevant Ex-Im Bank procedures and
provide purchase cardholders with the necessary guidance and resources that would help
ensure compliance with Section 508 requirements.




                                  AUDIT REPORT OIG-AR-12-06
                                              18
                            EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                                    APPENDIX A


Scope and Methodology
 We performed this audit from January 2012 through August 2012 in accordance with
 generally accepted government auditing standards. Those standards require that we plan
 and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
 basis for our findings and conclusions based on our audit objectives. We believe that the
 evidence obtained provides a reasonable basis for our findings and conclusions based on
 our audit objectives.

 Our objectives were to determine whether Ex-Im Bank’s: (1) policies and procedures
 comply with federal regulations, and (2) controls are adequate to ensure compliance with
 its policies and procedures. The audit focused on purchase card transactions made during
 FYs 2010 and 2011. We judgmentally selected 13 of Ex-Im Bank’s 33 purchase cardholders
 and reviewed their transactions for randomly selected months throughout both FYs. In
 total, we reviewed the controls over 845 transactions made by these 13 cardholders. Our
 sample selection for 2010 and 2011 included purchases totaling $365,733 and $349,863,
 respectively, or approximately 35 percent of the total transactions for each FY.

 To verify if Ex-Im Bank timely cancelled purchase cards when they were no longer needed,
 we reviewed records for two cards cancelled in 2010 and two cards cancelled in 2011. A
 total of four cards were cancelled in each year; therefore, our sample represents half of all
 cards cancelled during the period under review.

 In order to meet our primary objectives for this audit, we interviewed officials from Ex-Im
 Bank’s Contracting Services Office and Office of the CIO, sent questionnaires to
 25 cardholders and 15 AOs, and received responses from 22 cardholders and 13 AOs.14 We
 also performed the following tasks among others further described in the section entitled
 “Review of Internal Controls” below:

        Analyzed data obtained from contracting staff, as well as other available
        information, such as Ex-Im Bank’s Purchase Card Policy and government-wide
        policies and guidance.

        Requested and, where available, reviewed cardholder and AO training records.

        Examined Citibank monthly statements and compared transactions with cardholder
        receipts and Purchase Card Activity Logs for all sample items selected.



 14There were a total of 33 cardholders and 20 AOs. However, because some employees had resigned or were
 otherwise unavailable, we sent questionnaires to only 25 cardholders and 15 AOs.

                                       AUDIT REPORT OIG-AR-12-06
                                                   19
                         EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


        Assessed the performance of monthly reconciliations and purchase card program
        audits.

        Tested to determine if the sampled transactions were (1) adequately supported and
        approved; (2) part of a split purchase; (3) an appropriate use of the government
        purchase card; and (4) an appropriate use of convenience checks, where applicable.


Review of Internal Controls

 We examined Ex-Im Bank’s internal controls over the purchase card program and
 determined that controls should be strengthened to minimize risk of fraud, waste, abuse,
 and misuse of purchase cards. Our audit of key internal controls focused on whether the
 Bank maintained adequate documentation to show that purchase card transactions were
 for official Government use, were properly authorized and supported, and were regularly
 reviewed by the APC to minimize control weaknesses. Additionally, we tested for
 circumvention of controls in place to prevent cardholders from splitting large purchases
 into multiple transactions in order to avoid exceeding single purchase limits. Finally, to
 determine whether responsible parties were knowledgeable of government purchase card
 laws, regulations, policies, and procedures, we requested, and where available, reviewed
 training records for all Ex-Im Bank cardholders and AOs. See the “Results” section of the
 report for details.


Federal Laws, Regulations, Policies, and Guidance

 As part of our tests of internal controls, we reviewed applicable federal laws and
 regulations related to purchase cards. Additionally, we reviewed certain common
 problems identified in Council of Inspectors General on Integrity and Efficiency’s “A
 Practical Guide for Reviewing Government Purchase Card Programs” and the Government
 Accountability Office report entitled “Audit Guide – Auditing and Investigating the Internal
 Control of Government Purchase Card Programs.” We also examined Ex-Im Bank’s
 Purchase Card Policy and procedures. Our review included, but was not limited, to:

        FAR 48 C.F.R. Part 13: Simplified Acquisition Procedures;

        OMB Circular A-123, Appendix B, “Improving the Management of Government
        Charge Card Programs,” revised January 15, 2009;

        TFM, Volume 1, Part 4, Chapter 4500, “Government Purchase Cards;”

        RM-2010-01, “Assignment and Use of Government Purchase Cards,” April 15, 2011;

        GSA’s “Managing GSA SmartPay Purchase Card Use,” July 14, 2009;” and

        Citibank’s “Government Purchase Card Guide.”
                                    AUDIT REPORT OIG-AR-12-06
                                                20
                       EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Prior Coverage

 During the last 5 years, the Ex-Im Bank Office of Inspector General has not issued any
 reports of particular relevance to the subject of this report. However, Ex-Im Bank
 management engaged Cotton & Company LLP to review and reconcile monthly charges,
 including late charges and other adjustments, for the Government purchase card program
 with Citibank for the period March 2002 through March 2008. In its report dated
 September 2, 2008, Cotton & Company recommended that Ex-Im Bank improve payment
 processing and tracking of proof-of-payment documentation. Management concurred with
 Cotton & Company’s observations and partially concurred with their recommendations.

 In addition, the Government Accountability Office issued “Government-wide Purchase
 Cards - Actions Needed to Strengthen Internal Controls to Reduce Fraudulent, Improper,
 and Abusive Purchases” (GAO-08-333, March 14, 2008), which reported on internal control
 weaknesses in federal agency purchase card programs that exposed the U.S. Government to
 fraudulent, improper, and abusive purchases and loss of assets.




                                  AUDIT REPORT OIG-AR-12-06
                                              21
                            EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                                           APPENDIX B


Sample Ex-Im Bank Memo of Delegated Procurement Authority

                                                 Memorandum
   Date:
   To:
   From:       Mark Pitra, Ch ief Acquisition Officer
   Subject     Delegation of Procurement Authority Using a Government Purchase Card


   You are hereby granted Delegated Procurement Authority to purchase supplies and non-persona l
   services consistent with your position 's responsibilities and to satisfy legitimate requirements for the
   Export-Import Bank of the United States. Further, you are authorized to pay for such purchases using
   the Government Purchase Card issued in your name. You are responsible for following all applicable
   Federal Acquisition Regu lations and Ex-1m Bank Policy and Procedures when using your Government
   Pu rchase Card.
   This delegation is made with the following limitations on your use of the card:
           $          is your limit for an individual purchase.
           $          is your limit for all purchases in one month.


                                                        is your Approving Official (AO).
           This Delegation of Procurement Authority shall expire on September 1, 2010.
   All items must have prior approval from your Approving Official (AO). Marketing materials must also
   have prior approval from the Office of General Council (OGC). Your AO may impose additional
   requ irements and limits with which you are obligated to comply.
   This delegation does not exempt you from requirements to obtain certain supplies from required
   sources listed in the Federal Acquisition Regulation (FAR) Part 8, or from other organizations that
   have exclusive contracting authority for that commodity or service. Nor does this delegation
   authorize you to purchase prohibited supplies and services, including food , beverages, and
   temporary services. You are personally liable to the Government for any unauthorized purchases.
   Improper or illegal use of the Government Purchase Card may result in severe fines or adverse
   disciplinary action under 18 U.S.C. 2987 and Ex-1m Bank's Conduct and Discipline Policy.
   When you separate from the Export-Import Bank for any reason, this delegation terminates
   immediately and you must return the Government Purchase Ca rd and all associated records and
   personal files to the Agency/ Organ ization Program Coordinator (A/OPC).

 Source: Attachment B, RM-2010-01, “Assignment and Use of Government Purchase Cards,” April 15, 2011
 (Ex-Im Bank’s Purchase Card Policy).




                                         AUDIT REPORT OIG-AR-12-06
                                                        22
                               EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                                                                                   APPENDIX C


Ex-Im Bank Section 508 Compliance Form
                                                                                            Sav~                        Print Form

                                                                                                 Government Purchase Card
                                                                                             Form 3: Section 508 Compliance




               Requisition no. or last 4 digits ofCC                                          Est. Total Cost   I
              Items   I                                   Requested By                                  Orig. Code       I
              Before submitting this form:
                   Refer to Section508.gov t o identify which standards apply to this   procur~ment.

                   Document market research on availability of products or services that comply with the applicable standards.
                   Incorporate applicable st andards into requirements documents, specifications, solicitations, and statements
                   of work.
                   Make a reasonable ~ffon to confirm the compliance certified by manufacturers and vendors.


              Complete Section One or Two
              Section One: Compliance Certification (check only one)
               r    Full compliance c~rtified by v~ndor or manufacturer. C~rtification is auached.
               r    Full compliance c~rtified per technical evaluation by Bank Staff. Technical evaluation is attached.
               r    Due to advances in technology, this it~m complies wit h 508 standards t hrough technical means not
                    specified in official 508 documents. Explanation of compliance is attached.
               r    No commercially available item complies with all applicabl~ standards. Requirements documents, market
                    research, and a statement of standards not met are attached.
               r    This procurement is an open competition and the attached market reseGrch, requirements docum~nts,
                    and specifications were prepared in accordanc~ with 508 standards.

              Section Two: Compliance Exception (check only one)
               r    The items in this procurement will be accessed only by service personnel for maintenance, repairor
                    occasional monitoring of equipment. A description of the location is attached.
               r    Purchasing the most compliant product or service would impose an undue burden on Ex-1m Bank as
                    explained in the attached Undue Burden Justification. This explanation includes:

                    a. the applicable st andards
                    b. the market research performed to locate commercial items that meet the applicable st andards
                    c. the standard that cannot be met
                    d. why meeting that standard creates a sign ifKant difficulty or expense for Ex-1m Bank
                    ~. the proposed methods for providing alternative access to employees with disabilit ies




              I certify tha t th e information on thi s f orm and in the supporting attachments is accurate.


              Requesting Staff Member                                                                           b ate


              I certify that I have revi ewed the attached Undue Burden Justification and approve.

              Chief Information Officer
                                                                                                                Date
              Export-Import Bankofthe United States
                                                                                                                             EXB - 10 - OS

      Source: Form 3, RM-2010-01, “Assignment and Use of Government Purchase Cards,” April 15, 2011
      (Ex-Im Bank’s Purchase Card Policy).



                                                  AUDIT REPORT OIG-AR-12-06
                                                                     23
                           EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                                                                                         APPENDIX D


Management Comments




                                         EXPORT-IMPORT BANK
                                         of the UNITED STATES



        September 17, 2012

        MEMORANDUM FOR CHIEF OPERATING OFFICER ALBRIGHT

        From:                    Michael Cushing, Senior Vice President
        Subject                  Management's Response to the Inspector General's Audit of
                                 the Government Purchase Card Program

        The fonawing is management's response to the Inspector General 's draft audit report of August
        24,20 12.

        Background:

        The Ex~Im Bank O ffice of Inspector generaJ (OIG) began tlleir first audit oftbe Bank's purchase
        card program with Citibank for the period covering fiscal years 201 0 through 20 11 via their
        engagement letter dated January 11, 20 12. The OIG audit has now concluded their audit of 13 of
        the Bank's 33 cardholder accounts (845 purchases talaJing $7 15,595) and the fi ndings are
        detailed in the draft report dated August 24, 20 12.

        The OIG found no evidence of fraudulen t purchases during the audit and acknowledged Ex-1m
        Bank's current p urchase card program coordinator's (APC) efforts to strengthen the program.
        However, the D IG noted areas for improvement and provided recommendations for strengthening
        the purchase card program in their report.

        We appreciate the cooperative approach and professionalism o f the DIG staff in conducting this
        audit,

        As detailed in this memorandum, management concurs with all recorrunendations and the
        majority o f the DIG 's findings.

        OIG Recommendations and Management Responses:

        1.       OIG Reco mmendation: The APC verify that a1l Ex-1m Bank purcbase card program
        participants complete required purchase card training and obtain up-to-date training cenifica60ns
        as soon as practicable. Altbough 30 of the Bank's 33 cardholders completed the required GSA
        training, Approving O fficial training could only be verified in half o f the cases,
                 Management Response: Management concurs with the recommendation. All known
        copies of training certificates fo r active Cardholders and Approving Officials have been filed
        electronically in dedicated clearly labeled files on our share drive. The APC will a lso back up
        this information on a monthly basis elsewhere to ensure the information is retained and available.
        The APC has prepared an inventory list o f training renewal dates [or all program participants.
        Reminders of renewal dates wi ll be provided a month in advance and two weeks in advance to aU
        participants as their renewal dates approach. Those individuals who do not have a current
        training certificate on file will be in[onned that their participation in the purchase card program


                         8 11 Ver m o n t Ave nu e , N. W . Wa s hi ngton, D .C. 2 05 7 1

                                          AUDIT REPORT OIG-AR-12-06
                                                            24
                       EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




will be terminated in the event they do not obtain their refresher training and provide us with a
copy of the certificate in a timely manner.



2.       OIG Recommendation: The APC establish a process and recordkeeping system for
traclting and verifying program participant 's completion ofreqnired training in the future,
including a process for supervisory notification in the event that program participants fail to meet
future training requirements.
         Management Response: Management concurs with the recommendation. See response
above.



3.     OIG Recommendation: The CAO provide a current Delegation of Procurement
Authority to all Ex-1m Bank purchase cardholders once the APC has verified that cardholders
have met all immediate training requirements.
         Management Response: Management concurs with the recommendation. A current
Delegation of Procurement Authority has been issued to all Purchase Cardholders and Approving
Officials, including those individuals for whom we do not have a current record of training. We
believe it to be highly improbable that anyone would have been issued a purchase card or
designated as an Approving Official witbout the required training at the time it was originally
required, and we concur that a current Delegation of Procurement Authority sho uld be provided.
In those cases where a current training certificate is lacking, the delegation memos will note our
lack of current documentation and reiterate the need to obtain refresher training by the identified
renewal date.


4.      DIG Recommendation: The CAD develop Ex-1m Bank-specific purcbase card training to
supplement refresher training offered by GSA, as required by Ex-1m Bank' s Purchase Card
Policy and the TFM. The training should emphasize (a) Ex-1m Bank' s purchase card approval
process and requirements; (b) prohibitions against splitting transactions; (c) restrictions on tbe use
of convenience checks; (d) requirements for and benefits of maintaining thorough and complete
purchase card records; and (e) requirements for monthly reconciliations of purchase card records
and regular audits and reviews of purchase card activities.
        Management Response: Management concurs with the recommendation. We will
develop supplemental Ex-1m Bank purchase card training for Cardholders and for Approving
Officials. We will provide a draft share the proposed training information to the OIG within the
next 60 days. We will consider any changes to tbe training material the OIG may recommend.


5.      DIG Recommendation: Revise Ex-1m Bank' s Purchase Card Policy to more clearly
describe restrictions all the use of convenience checksJ including procedures to ensure they are
used properly and only when necessary, as described in OMS Circular A-123, Appendix B.
       Management Response: Management concurs with the recommendation. The Purchase
Card Policy will be revised to provide additional information on the proper circumstances and use
                                                                                                2




                                     AUDIT REPORT OIG-AR-12-06
                                                    25
                        EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




of convenience checks and we will provide the proposed training infollllation to the OIG within
the next 60 days. We will consider any changes to the amended policy text tbe OIG may
recommend.


6.      OIG Recommendation: The APC perfOm! random audi ts of cardholder accounts and
conduct a comprehensive annual review of Ex-Irn Bank's purchase card program as soon as
practicable and institute a schednle and processes for recurring future reviews in order to identify
and implement any future corrective actions that may be warranted.
         Management Response: Management concurs with the recommendation. The APC will
conduct random audits of one to three card holders per quarter and a comprebensive a review of
Ex-1m Bank's purchase card program on an armual basis beginning each October, starting with
October of this year. The APC will utilize reports available from Citibank to identify accounts
that may not be needed in the next FY, require a higher or lower per purehase and/or monthly
limit, have a history of declined purchases, returns, or other suspicious transactions, apparent split
purchasing, and identify spend data per user office. These reports will also be provided to the
Approving Officials on a quarterly basis and any problematic activity will be brought to the
Approving Officials' attention at that time. Electronic copies of these reports will be maintained
in a clearly labeled dedicated file already on our share drive.
Specific Ola Findings and Management Responses:
a)     OIG Finding: Oftbe 847 purchases reviewed, 741 (or 88 percent) did not receive prior
approval, as required by Ex-1m Bank and Office of Management and Budget policy;
         Management Response: The Ex-1m Bank purchase card policy, and OMB memorandum
require advance approval of each purchase card purchase. In a number of cases, this approval is
obtained orally or evidenced via written approval of tbe Purchase Requisition for the transaction,
but not included in the supporting reconciliation documentation. Future Ex-1m Bank Purcbase
Cardholder and Approving Official training will require written approval from the Approving
Official prior to a Cardholder making a purchase, and that tbe approval be included in the
supporting documentation reconciling the cardholder' s monthly statement. We understand that
the OIO is seeking written evidence (via email, buck slip or memo, as opposed to oral approval or
approval of the Purchase Requisition) from the Approving Official of prior approval of each
purchase. This procedure would apply in cases where the purchase card account is funded in
advance with a pre-determined budgeted amount; as is the case with our frequent purchase card
users. \l
However, if a purchase card accowlt is funded per purchase, as is the case with infrequent
purchase card users, the cardholder is to include a copy of the requisition committing funds for
each purchase and the Approving Official's signature is to be included on the requisition. We
believe a copy of the requisition committing funds for the purpose, signed by the Approving
Official, sufficiently evidences advance approval in those cases where copies 3rc included in the
monthly statement documentation for accounts funded on a pay-as-you-go basis. Among the
population of 13 audited purchase card accounts, we believe six aceounts are funded per purchase
(in which case a copy of the requisition committing funds signed by the Approving Official
evidences advanced approval). To the extent actions from these pay-as-you-go accounts were


                                                                                                    3




                                     AUDIT REPORT OIG-AR-12-06
                                                    26
                       EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




included in the 74l purchases noted as lacking evidence of pre-approval, we believe they have
been inappropriately categori zed as lacking approval
        \l It should be noted that IMT has indicated its position on the subject of
        preapproval to both our off,ce and the OIG; which is that the IMT cardholders in
        question obtain the budget object classification (BOC) to insert in their purchase
        card log from onc of two respective approving officials, and as such, this process
        necessarily involves pre-approvaL While the lMT process as described evidence
        pre-approval, this process is not currently specified in our current purchase card
        policy. Insofar as we do nol wish to unnecessarily encumber the purchase card
        program with unnecessary paperwork, particularly for a heavy purchase card user
        group such as lMT, we will continue our efforts to compare how other agencies
        with similarly sized purchase card programs satisfY the pre-approval requirement.
Our purchase card policy appears to be overly restrictive on the subject of pre-approval. OMB
guidance merel y requires pre-approval, but does not require written pre-approval per purchase.
We are committed to working with the OIG to reach a mutually agreeable process for evidencing
the pre-approval process or pre-funded purchase card accounts that satisfied OMB requirements
and audit needs, and making appropriate revisions on this subject in our purcbase card policy
witbin the next 60 days.
b)      OIG Finding: Of the 847 purchases reviewed, 11 7 (or 14 percent) were made using
multiple transactions, thereby circumventing the cardholder's single purchase limit and avoiding
requirements for competition that apply to purchases in excess of the micro-purchase threshold.
         Management Response: The Cardholders responsib le fo r each instance of split
purchasing identified in the audit, and their Approving Officials, will receive additional training
on this subject within the next 10 days, and in cases where longer teon purchasing solutions are
required to acco mmodate repeat purchases, they will be implemented within the next 60 days. In
addition, within tbe next 30 days, all Cardholders and Approving Officials will be reminded of
the policy against split purchasing.
The OIG identifies three examples of apparent split purchasing to avoid the $3,000 per purchase
limit. One instance occurred in FY' 10 and two instances occurred in FY'll. In one of the three
instances cited, we agree that the purchase appears to have been intentionally split in three
installments, by a former HR employee to pay for a professional association membership fee for
HR. The cardholder no longer works for the Bank and we tberefore have no information other
thall the monthly purchase card statement. In the case of the other two purchase cardholders, who
both still work in the Office of Administrative Services (OAS), we specifically inquired as to the
nature of the purchases and the timing of the purchases. Both individuals responded that the
purchases were ordered over a period from mid-July to mid-August and that the two vendors in
question each bundled and posted the charges at a time convenient for the vendor rather than the
actual dates of the transactions. The contemporaneous purchase card logs of one of the
cardholders support their claim tbat the orders were placed over this time period. Insofar as the
purchase card statement format requires both a sale date (fi rst column on the left of the statement)
and a post date for posting the charge to the account (second column), one would think the date
would be the same in both columns if the vendors were in ract consolidating the posting of their
charges. However, our experience is that this does in fact happen occasionally and the one
cardholder's response may he accnrate (as supported by his contemporaneous purcbase card log).

                                                                                                   4




                                     AUDIT REPORT OIG-AR-12-06
                                                   27
                        EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




But in botb casestbe nature oftbe goods (Ex-1m Bank stationary) and services ordered (minor
office construction/painting during the building renovation) are sucb tbat longer term contraclual
vehicles should be used in making these purchases.
A long term comp etitively awarded contract for stationary is required a nd we intend to proceed
witb that procurement within the next 60 days. We have a newly awarded 8(a) task order contract
in place for building renovation support services which should immediately eliminate future
purchase card purchases for minor conslruction and renovation services. The cardholders in
question bave already been reminded on the need to use the building renovation support contract.
We have requested that OAS provide us with their stationary requirements ilud past ordering
volumes to allow us 10 obtain these products under a contract. A contractual solution for
purchasing stationary will be awarded within 60 days.
We understand tbal the most frequent instances of split purchasing (multiple purchases to the
same vendor witbin a billing cycle totaling more than $3 ,000 collectively) are predominantly for
office supplies, paper and photocopier toner. We have a newly awarded Blanket Purchase
Agreement (BPA) to several smaJl businesses for office supplies. FuJI and proper use of this
BPA witbin tbe next 30 days will eliminate instances of multiple purchases to the same vendor
for office supplies within a hilling cycle insofar as orders are to either be rotated among vendors
or competed, as necessity dictates. This BPA does not currentl y provide for paper or toner and
will either be modified to include these items or other contractual solutions will be put in place
for these items within the next 60 days.


c)      0)0 Finding: Of the 847 purchases reviewed, 6 (or I percent) involved questionable use
of convenience checks, which incurred unnecessary fees.
         Management Response: We have reiterated the appropriate use of convenience checks to
our staff (the only possessors of cOllvenience checks) and we will stress the use of convenience
cbecks as a payment method of last resort in our purcbase card training to Cardholders and
Approving Officials. We intend to revise our purchase card policy within the next 60 days to
incl ude additional information on employee responsibilities to make a reasonable effort to find
vendors wbo accept the purcbase cards; that checks are a payment method of last resort.
Additional information concerning training requirements, stop payment procedures, independent
reviews, record retention requirements, and related best practices, will be provided to the bolders
of the checks, (the OCS staff within the next 60 days). Within the next 60 days, a notice will be
sent to all Cardholders and Approving Officials reiterating tbe strong preference for vendors who
accept the purchase card.
T wo of the instances identified were for hard copy design and/or print jobs requested by the
Office ofCommunicatiollS and vendors who accept the purchase card could bave been used. We
intend to insist that print and media design firms accept the purchase card for all future related
purchases. We bave significantly reduced the use of convenience checks to such firms in the past
rew years.

In one in stanc e a cb.eck for speecb. writing services was above the competition thresbold and there
was no evidence of competition. Competition should have been conducted and documented, or
alternatively, a source justification should have been included in the supporting documentation.
In either case, a formal purchase order for these services should have been awarded, with the
                                                                                                      5




                                     AUDIT REPORT OIG-AR-12-06
                                                    28
                        EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




convenience check serving only as the method of payti:lent rather than also the method of
purchase.

[n another instance a check within the micro-purchase threshold was used to pay for a newspaper
advertisement at the insistence of the newspaper. Typically we must accept the payment method
required as the selected newspaper had already been identified by the customer office as tbe
desired advertiser due to the target readership. In this case we feel use of the check was
appropriate.

[n another instance a check within the micro-purchase threshold was used to pay for food and
beverages for an employee diversity day event. We feel the use of a convenience check for this
pllI]JOse was appropriate. However, we do intend to continue our efforts to identifY alternatives
to COSTCO (the historically used source because of low prices) where the purchase card is
accepted. [COSTCO accepts only debit cards, its own co-branded credit card, or checks.] There
is another bulk goods store (BJ's) within a short drive from headquarters and we will be assessing
th eir product selection and pricing within the next 60 days to determine if it is a viable alternative.

In the remaining instance identified a convenience check within the micro-purchase threshold was
issued to an individual. We feel the use of the convenience check as both the purchasing and
payment instrument was appropriate. The check was for consulting services for the Office of
General Counsel. The OIG questioned tbe need for services in the context of possibl y using
existing OGC resources. While this may be a va lid point, we do not as a practice question
customer requirements (assuming they are otherwise ethical aad in compliance with federal
procurement regulation) and bave in tbe past secured advisory services for General Counsel in
unusual or complex matters.


d)      OlG Finding: Purchase card program participants did not always maintain receipts or
review and reconcile records in a timely manner. Six of the thirteen cardholders included in the
review did not maintain proper documentation. Twenty-five of the 845 transactions we reviewed
were not supported with invoices or receipts. Of the 76 monthly reconciliations reviewed, 56 (or
74 percent) were either reviewed by tbe cardholder after the fifth business day or were not dated
by the cardholder; aad, 53 (or 70 percent) were either reviewed by the AO after the third business
day or were not signed by the AO and/or cardholder.

         Management ReSpOnse: We acknowledge the need for improvement in the quality of
supporting documentation for cardholder monthly statements and their timely reconciliation.
This is an ongoing challenge and we will continue to stress the need for thorough supponing
documentation and timely statement reconciliation to all Purchase Card bolders and their
Approving Officials in our purchase card training. The APC will also issue quarterly reminders
to program participants stressing the importance of complete and accurate supporting
documentation and timely reconciliation. The APC will issue such a reminder Ilotice within the
next 30 days.

The deadl ines for submission and review of statements are merely steps toward the ultimate goal
of all monthly review and reconciliation being completed witbin 10 days after the end oflhe
billing cycle to perrnit timely payment. Tbe interim deadlines were established to assist
                                                                                                      6




                                     AUDIT REPORT OIG-AR-12-06
                                                    29
                        EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




Approving Officials who were repeatedly late in twnillg in their Cardholders' statements identify
bottlenecks. To that end, we recognize the importance of the interim deadlines but feel they
should only be used as a tool for their intended purpose of assessing tbe reason for missing the 10
day reconciliation deadline when applicable, as opposed to meriting mention as an audit finding.
We are far more concerned about the lack of signatures and dates that have been noted on the
supporting documentation and will stress in our training and in quarterly reminders the need for
timely review and signature in the reconciliation process. We will also be reviewing our
Purchase Card Policy to determine if it may be too restrictive in tenns of implying policy status to
the interim approval dates. Any necessary changes to our Purchase Card Policy on that subject
will be made within the next 60 days.

e)      OIG Finding: None of the Bank's purchase cardholders had a cnrrent Delegation of
Procurement Authority .

         Management Response: We understand that the Cardholder application forms were
historically relied upon 10 evidence a given Cardholderls account parameters. Prior to this audit,
we recognized that the application form alone does not explain the proper use of the card and the
current agency purchase card program coordinator, once assigned those duties, immediately took
steps to-issue delegation memoranda to newly appointed Cardholders and their Approving
Officials. At this point in time, all current Cardholders and their Approving Officials have been
provided with delegation memos and they will be re-issued upon full resumption of purchase card
accounts in FY'13 (the accounts are restricted to $0 limits at the end of the cnrrent FY to allow for
end of year reconciliation and payment).

I)     OIG Finding: None of the cardholders or Approving Officials had completed Ex-1m
Bank specific training, as required by the Purchase Card Policy and the TFM, since the Ex-1m
Bank does not offer such training.
        Management Response: Supplemental Ex-1m Bank purchase card training will be
developed within the next 60 days. It will be shared with the OIG and we will consider any
suggestions or cbanges tlley care to offer on the training malerial.


g)      OIG Finding: Copies of all training certificates must be maintained pursuant to NARA
requirements. A1thougb 30 of the Bank' s 33 cardholders completed tbe required GSA training,
Approving Official training could only be verified in balf of the cases.
        Management Response: See response to OIG Recommendation # I.




                                                                                                   7




                                     AUDIT REPORT OIG-AR-12-06
                                                   30
                      EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




OIG Matter of Interest: Ex-1m Bank Needs Clear Procedures for Ensuring Section 508
Compliance
The OIG noted as a separate discussion point, or appendix to the audit report, that Ex-1m Bank
had not established clear policies and procedures for ensuring purchases of electronic and
information techuology items are compliant with Section 508 of the Rehabilitation Act.
We concur with the recommendation. While we believe our current policy clearly states the
applicability and need to document 508 compliance for EI&T purchase card purchases, we
acknowledge that additional guidance is needed on implementation; specifically, the need to
obtain the standard Section 508 determination form (Form 3 attachment to our purchase card
policy) in the supporting documentation of the monthly purchase card statements. We intend to
expand upon our policy within the next 60 days to clarify this point in the next policy update.
We believe 508 applicability should be determined based on end user interface. If the hardware
or software item does not directly impact the end user's interface with a system Or the equipment
used to aceess a systetn or commonly used office software products, then Section 508 compliance
is not applicable. Even when it is applicable, OEM self-certification is accepted practice and
confirming compliance in a cost effective maImer is often dependent upon that OEM self-
certification. As with the Energy Star program, vendor acknowledgement of Section 508
compliance on product packaging and in on·1ine product information is a work in progress and
continues to improve. Our Section 508 determination form allows for indicating non-compliance
and we have advised IMT to include the Section 508 determination form in purchase card
statement supporting documentation for all El&T purchases and to indicate a product is non-
compliant as a default in the event 508 compliance cannot otherwise he confirmed in a cost
effective manner.
Only Our Contracting Officers in OCS and two individuals in IMT are authorized to purchase
E1&T with their purchase card. IMT staff performs the vast majority of the subject purchases.
We have recently discussed this issue with OCS and IMT staff and we are confident we can
achieve mutually agreed upon documentation requirements within the next 60 days to achieve
100% compliance on properly documenting Section 508 determinations in future ET&T purchase
card purchases.
cc:     Fred P Hochberg, President and Chairman




                                                                                                  8




                                   AUDIT REPORT OIG-AR-12-06
                                                 31
                         EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




Acknowledgements

 Key contributors to this report were Christine Staley, Senior Auditor, and
 Mathew Wiles, Auditor.



To Report Fraud, Waste, or Abuse, Please Contact:

 Email:               IGhotline@exim.gov

 Telephone:           1-888-OIG-EXIM (1-888-644-3946)

 Fax:                 (202) 565-3988

 Address:             Office of Inspector General
                      Export-Import Bank of the United States
                      811 Vermont Avenue, NW
                      Suite 138
                      Washington, DC 20571
Office of Inspector General
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, DC 20571
202-565-3908
www.exim.gov/oig
